              /. I   I          NATIONAL SCIENCE FOUNDATiON
                                                                                                oseout
                                                                                            page 1 of 2
                                     4201 WILSON BOULEVARD
                                                                             1
                                    ARLINGTON, VIRGINIA 22230




    OFFICEOF :
INSPECTOR GENERAL    :.:




  MEMORANDUM

  ~a tei -      -   March 27,1998

  To:
                                                                             !I
  From:                                       gent, Investigations Section

  Through:

  Re:               Close out
                                                                                 I
                                             gent-in-Charge, Investigations Section
                                                                                 I




  In September 1997,                    the General Services ~ d m i n i s t r a G n(GSA) Office
  of Insoector                          an allegation
                                               -       to our office. The11GSA agent   -    had
                                                                               I



                           P
  received an allegation that         as misusing surplus government property by giving it
  away to contractors. The comp ainant alleged that the-was
  equipment to contractors in lieu of paying them for services render4d. The
                                                                             giving the surplus
                                                                                              0 --

  receives surplus government property, whose title remains with NSF.
                                                                                  1'1
  The GSA a ent assigned to the case,     0        indicated that the sur$lus property was
  obtained by           about ten years ago, and believed that the allaged wrongdoing
  occurred about ve years ago.          aid that to his knowledge, the allegations did not
                                           the sale or giving away of this' property. GSA-
  OIG decided not to pursue this case, because the allegations were vigue, the alleged
  wrongdoing occurred over five years ago, and no one appears to have p{rsonally profited
  from the giving away of government property.                             I
                                                                                     I,




  According to the NSF contract property administrator,
  government property but the title remains with NSF. In                                  o give away
  this property, they must get permission from NSF to do so.
                quests approval, in writing, to sell or donate
                        administrator did not recall receiving requests by
  title of the equipment in question.
                                                                  i
                                                                  1   l o s e o u r
                                                                           page 2 of 2
                                                                         1I/

contractors. m
Our review found that             had traded equipment for work perfprmed by various
                                            us with the invoices that indicated the
equipment traded and the nature of the work performed by the contraCtor.
                                                                          It

property manager stated that he obtained permission and
adrmnistrator at NSF. Although this administrator
traded equipment for contract work, he later recalled that
title transfer of some equipment in order to trade

Our review showed thatd-           not violate
nor did they circumvent or ignore any rules
program. Based on this information, this case is closed.
